<html>
<title> - H.R. 2297, WHITE HOUSE CONFERENCE ON FOOD AND NUTRITION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
        H.R. 2297, WHITE HOUSE CONFERENCE ON FOOD AND NUTRITION

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON RULES AND
                       ORGANIZATION OF THE HOUSE

                                 of the

                           COMMITTEE ON RULES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                          MONDAY, MAY 18, 2009


[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


             Printed for the use of the Committee on Rules




                  U.S. GOVERNMENT PRINTING OFFICE
56-021                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                           COMMITTEE ON RULES

               LOUISE McINTOSH SLAUGHTER, New York, Chair
JAMES P. McGOVERN, Massachusetts,    DAVID DREIER, California, Ranking 
    Vice Chair                           Member
ALCEE L. HASTINGS, Florida           LINCOLN DIAZ-BALART, Florida
DORIS O. MATSUI, California          PETE SESSIONS, Texas
DENNIS A. CARDOZA, California        VIRGINIA FOXX, North Carolina
MICHAEL A. ARCURI, New York
ED PERLMUTTER, Colorado
CHELLIE PINGREE, Maine
JARED POLIS, Colorado
                    Muftiah McCartin, Staff Director
            Hugh Nathanial Halpern, Minority Staff Director
                                 ------                                

             Subcommittee on Legislative and Budget Process

                  ALCEE L. HASTINGS, Florida, Chairman
DENNIS A. CARDOZA, California        LINCOLN DIAZ-BALART, Florida, 
CHELLIE PINGREE, Maine                   Ranking Member
JARED POLIS, Colorado                DAVID DREIER, California
LOUISE McINTOSH SLAUGHTER, New York
                      Lale Mamaux, Staff Director
                Cesar Gonzalez, Minority Staff Director
                                 ------                                

          Subcommittee on Rules and Organization of the House

               JAMES P. McGOVERN, Massachusetts, Chairman
DORIS O. MATSUI, California          PETE SESSIONS, Texas, Ranking 
MICHAEL A. ARCURI, New York              Member
ED PERLMUTTER, Colorado              VIRGINIA FOXX, North Carolina
LOUISE McINTOSH SLAUGHTER, New York
                     Keith L. Stern, Staff Director
                Keagan Lenihan, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                              May 18, 2009

                                                                   Page
Opening Statements:
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts and Chair of the Subcommittee on 
      Rules and Organization.....................................     1
    Hon. Pete Sessions, a Representative in Congress from the 
      State of Texas and Ranking Member of the Subcommittee on 
      Rules and Organization.....................................     3
    Prepared statement...........................................     5
    Hon. Michael Arcuri, a Representative in Congress from the 
      State of New York..........................................     6
    Hon. Virginia Foxx, a Representative in Congress from the 
      State of North Carolina....................................     6
Witness Testimony:
    Hon. Jo Ann Emerson, a Representative in Congress from the 
      State of Missouri..........................................     7
    Prepared statement...........................................     9
    Reverend David Beckmann, President, Bread for the World......    18
    Prepared statement...........................................    19
    Mr. Robert Egger, President, D.C. Central Kitchen............    25
    Prepared statement...........................................    28
    Ms. Nicole R. Robinson, Director of Corporate Community 
      Involvement, Kraft Foods...................................    30
    Prepared statement...........................................    31
Additional Materials Submitted for the Record:
    Curriculum Vitae and Truth in Testimony Forms for Witnesses 
      Testifying Before the Committee (where applicable).........    36
    Letter from Ms. Vicki Escarra, President and CEO of Feeding 
      America, to Representatives James McGovern and Jo Ann 
      Emerson, dated May 9, 2009.................................    44
    Letter from Ms. Christine A. Poward, Executive Director of 
      the Association of Nutrition Services Agencies, to 
      Representative James McGovern, dated May 12, 2009..........    47
    Letter from the Reverend Larry Snyder, President of the 
      Catholic Charities USA, to Representative James McGovern, 
      dated May 12, 2009.........................................    49
    Letter from Ms. Margaret Saunders, President, and the 
      Reverend Douglas A. Greenaway, Executive Director of the 
      National WIC Association, to Representative James McGovern, 
      dated May 12, 2009.........................................    51
    Letter from Mr. Max Finberg, Director of the Alliance to End 
      Hunger, to Representative James McGovern, dated May 13, 
      2009.......................................................    53
    Letter from Mr. Gary A. Davis, CEO of East Side Entrees, to 
      Representative James McGovern, dated May 13, 2009..........    56
    Letter from Ms. Karen Pearl, President and CEO of God's Love 
      We Deliver, to Representative James McGovern, dated May 13, 
      2009.......................................................    58
    Letter from Mr. Hadar Susskind, Vice President and Washington 
      Director for the Jewish Council for Public Affairs, to 
      Representative James McGovern, dated May 13, 2009..........    60
    Letter from Mr. David Richart, Executive Director of Lifelong 
      AIDS Alliance, to Representative James McGovern, dated May 
      13, 2009...................................................    63
    Letter from Mr. Joel Berg, Executive Director of the New York 
      City Coalition against Hunger, to Representative James 
      McGovern, dated May 13, 2009...............................    65
    Letter from Mr. Kevin Winge, Executive Director for Open Arms 
      of Minnesota, to Representative James McGovern, dated May 
      13, 2009...................................................    67
    Letter from Ms. Deborah R. Hinde, President and CEO to Vital 
      Bridges, to Representative James McGovern, dated May 13, 
      2009.......................................................    69
    Letter from Mr. Greg Lukeman, Executive Director of Food 
      Outreach Inc., to Representative James McGovern, dated May 
      14, 2009...................................................    71
    Letter from Mr. James D. Weill, President of Food Research 
      and Action Center, to Representative James McGovern, dated 
      May 14, 2009...............................................    73
    Letter from Ms. Erin Pulling, Executive Director of Project 
      Angel Heart, to Representative James McGovern, dated May 
      14, 2009...................................................    75
    Letter from Ms. Ellen Parker, Executive Director of Project 
      Bread--the Walk for Hunger, to Representative James 
      McGovern, dated May 14, 2009...............................    77
    Letter from Ms. Pat Nicklin, Managing Director of Share Our 
      Strength, to Representative James McGovern, dated May 14, 
      2009.......................................................    79
    Letter from Mr. Robert Greenstein, Executive Director of the 
      Center on Budget and Policy Priorities, to Representative 
      James McGovern, dated May 15, 2009.........................    81
    Letter from Mr. John T. Evers, Executive Director of the Food 
      Bank Association of New York State, to Representative James 
      McGovern, dated May 15, 2009...............................    83
    Letter from Mr. Clyde W. Fitzgerald, Jr., Executive Director 
      of Second Harvest Food Bank of Northwest North Carolina, to 
      Representative James McGovern, dated May 15, 2009..........    85
    Letter from Dr. Keith Schildt, President, and Mr. Bob 
      Blancato, Executive Director, of the National Association 
      of Nutrition and Aging Services Programs (NANASP), to the 
      Chairman and Members of the Subcommittee on Rules and 
      Organization of the House, dated May 15, 2009..............    87
    Letter from Mr. Bill Ayres, Co-Founder and Executive Director 
      of World Hunger Year, Inc., to Mr. Keith L. Stern, 
      Subcommittee Staff Director, dated May 15, 2009............    90
    Letter from Ms. Deborah Weinstein, Executive Director of the 
      Coalition on Human Needs, to Representative James McGovern, 
      dated May 18, 2009.........................................    92
    Letter from Ms. Pamela Baily, President and CEO of Grocery 
      Manufacturers Association, to Representative James 
      McGovern, dated May 18, 2009...............................    94
    Letter from Dr. H. Eric Schokman, President of Mazon: A 
      Jewish Response to Hunger, dated May 18, 2009..............    96
    Letter from Mr. Roger Johnson, President of the National 
      Farmers Union, to Representatives James McGovern and Jo Ann 
      Emerson, dated May 18, 2009................................    98
    Letter from Ms. Kelly D. Johnson, Vice President Government 
      Affairs of Campbell Soup Company, to Representative James 
      McGovern, dated May 21, 2009...............................   100
    Letter from Mr. Paul Downey, President of the California 
      Nutrition Coalition, to the Chairman and Members of the 
      Subcommittee on Rules and Organization of the House........   103
    Letter from Mr. Edward M. Cooney, Executive Director of the 
      Congressional Hunger Center................................   106
    Letter from the Honorable Dan Glickman, Former Secretary of 
      Agriculture and Former Member of Congress from Kansas, to 
      Representative James McGovern..............................   108
    The Washington Times Op-Ed by George McGovern and Bob Dole, 
      entitled ``Obesity Conference Call,'' March 27, 2009.......   110


 ORIGINAL JURISDICTION HEARING ON H.R. 2297, WHITE HOUSE CONFERENCE ON 
                           FOOD AND NUTRITION

                              ----------                              


                          MONDAY, MAY 18, 2009

              House of Representatives,    
                  Subcommittee on Rules and
                         Organization of the House,
                                        Committee on Rules,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3 p.m., in Room 
H-313, The Capitol, Hon. James P. McGovern [chairman of the 
subcommittee] presiding.
    Present: Representatives McGovern, Arcuri, Sessions and 
Foxx.

                       OPENING STATEMENTS

    Mr. McGovern. The Subcommittee on Rules and Organization of 
the House will come to order.
    Let me begin by welcoming everyone to this original 
jurisdiction hearing on H.R. 2297, calling for a White House 
Conference on Food and Nutrition.
    I want to thank all of the witnesses for taking the time 
out of their busy schedule to take part in this hearing. I also 
want to thank members of this subcommittee, and specifically 
the Ranking Member Mr. Sessions, for working on and 
participating in this hearing.
    To my colleagues of the subcommittee, please feel free to 
make some brief opening statements, if you like. Following any 
opening statements, we will hear from our first witness, the 
Honorable Jo Ann Emerson from Missouri. After her statement, we 
will proceed to questions and then go to the second panel.

 OPENING STATEMENT OF HON. JAMES P. MCGOVERN, A REPRESENTATIVE 
  IN CONGRESS FROM THE STATE OF MASSACHUSETS AND CHAIR OF THE 
             SUBCOMMITTEE ON RULES AND ORGANIZATION

    Many of you know that ending hunger is one of my passions. 
I have spoken about it numerous times in this committee and on 
the House floor, and I firmly believe that we have the food and 
the means to end hunger in America, but we haven't found the 
political will to do so.
    While I believe that hunger is a political condition, it is 
not a partisan one. A hungry child does not think about 
Republican or Democratic politics, only about where their next 
meal will come from. That is why, along with my friend and 
colleague Jo Ann Emerson, I introduced legislation calling for 
a White House Conference on Food and Nutrition.
    The last, in fact the only time, a White House Conference 
on Hunger was held was in 1969 when President Richard Nixon 
convened a similar conference to address these issues. The 
result was a dramatic improvement in the Federal safety net 
program, food stamps, WIC and school meals.
    No longer do we have the sunken eyes and swollen bellies 
that are still common in famine-plagued areas around the globe. 
Yet the fact is that hunger still exists in the United States. 
The face of hunger changed after that conference, yet 40 years 
later, according to the latest USDA data, more than 36 million 
people living in this country, the United States of America, 
still went hungry in 2007.
    The rate of very low food security among children and 
seniors, USDA's way of saying the hungriest in this country, 
rose 60 percent and 26 percent respectively over the previous 
year. This means there were over 690,000 very hungry kids in 
America in 2007 and over 780,000 very hungry seniors. That 
simply is unconscionable in 2009.
    The Federal anti-hunger safety net is good, but is an 
imperfect system. Food stamps, now called SNAP, helps families 
put food on the table. The improvements included in the farm 
bill and recovery package greatly improved the purchasing power 
of food stamps, yet that benefit is still inadequate for a 
variety of reasons. School meals are provided, yet not every 
child who needs a meal gets one, nor are these meals as 
nutritious as they should be. And while hunger doesn't take a 
summer break, there are millions of kids who receive a free 
meal during the school year, but don't have access to a meal 
during the summer.
    The Federal safety net is just that, a safety net. The 
Federal programs are critical, but for too long we have relied 
too heavily on food banks and food pantries. The problems 
facing these organizations are twofold: an increasingly 
hungrier population, more middle-income families are relying on 
help from these groups than in recent years, and fewer monetary 
and food donations are coming in. This is attributable to a 
faltering economy and the resulting increase in demand.
    There is clearly a connection between hunger, the 
availability of good, nutritious food and the livelihoods of 
the American people. The school lunch program began as a way to 
properly feed our Nation's children so they would be ready to 
fight in World War II. We created the WIC program in order to 
help low-income pregnant mothers and infants receive proper 
nutrition in order to physically and mentally develop and grow.
    We know that hunger has direct impacts on the education and 
health of our children. The same is true with our seniors. It 
is critical that senior citizens, many who live on fixed 
income, receive proper nutrition. Without good, healthy food, 
seniors will face a myriad of health problems that are easily 
preventable. A lack of nutritious food will also exacerbate 
existing medical conditions.
    That brings us back to the need for Presidential 
leadership. For too long we have relied on an incomplete 
Federal and private response to the issue of hunger in this 
country. What we need is a new approach to the problem, someone 
who will not only highlight to the country that there are still 
hungry people in America, but someone who will ask the right 
questions: Who are the hungry; who is at risk of hunger in the 
near future; is there a safety net doing the job; where are the 
gaps in the safety net; how nutritious is the available food; 
who is falling through the cracks; and simply, how do we end 
hunger in America? How is the obesity crisis connected to food 
security? How do we increase people's purchasing power so they 
can afford to buy nutritious food? How do we get beyond simply 
giving people food? How do we make food banks and food 
pantries, some of these safety net programs, obsolete?
    As I said at the beginning of this year, hunger is a 
political, not a partisan, connection. I believe that President 
Bush should have convened this conference when he was in 
office, and now I believe that President Obama should do it.
    Now I will recognize our subcommittee Ranking Member Mr. 
Sessions, if he has any opening remarks, and anybody else on 
the committee.
    Mr. McGovern. Mr. Sessions.

 OPENING STATEMENT OF HON. PETE SESSIONS, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF TEXAS AND RANKING MEMBER OF THE 
             SUBCOMMITTEE ON RULES AND ORGANIZATION

    Mr. Sessions. Mr. Chairman, thank you so very much.
    Mr. Chairman, just yesterday at church I was reminded that 
my church, at the time of Katrina, provided 1 million pounds of 
food, 1 million man hours and $1 million to help out Katrina 
victims when they came to Dallas, Texas. We did the things we 
felt like needed to be done because the need existed there.
    My church also, on a regular basis, participates with an 
organization called Habitat for Humanity, and while this has 
very little to do with food, it has a lot to do with housing. I 
think they go together. My church has a program called 
Carpenters for Christ, and we are number three in the world as 
an organization in providing homes in Dallas, Texas.
    So I believe that charity does begin at home. I believe the 
story we need to tell is a story that can be told all across 
this country and individual communities, with the thought and 
the hope that individual communities step up and do what they 
should do.
    Mr. Chairman, I will ask unanimous consent for a statement 
of mine to be placed in the record.
    Mr. McGovern. Without objection.
    Mr. Sessions. With that said, I will consume just a few 
minutes to give you my brief thoughts.
    I would like to thank Chairman McGovern for holding this 
hearing today. I would also like to thank Congresswoman Jo Ann 
Emerson, a dear friend of mine, for being on this first panel.
    Thanks as well to Robert Egger, president of the D.C. 
Central Kitchen; David Beckmann from Bread for the World; 
Nicole Robinson with Kraft Foods Global, for testifying on this 
important issue of food and nutrition.
    In 2007, the U.S. Department of Agriculture reported that 
36.2 million people in the United States were living in 
households considered to be food insecure. Texas, my home 
State, is one of the highest food-insecure States in the 
Nation, and without the appropriate nutrients, there could be 
harmful effects to learning, development, productivity, 
physical and psychological health, and family life.
    Generally, Americans suffer from a less severe form of 
malnutrition than those around the globe. This is due to the 
generosity of the American public. American companies provide a 
proactive role in fighting hunger through charitable donations, 
contributions, trade policies and government safety net 
programs.
    One example is the Communities Foundation of Texas, a 
Dallas-based organization, and they have been a partner with 
donors for raising the quality of life in my community for over 
50 years. Since 1953, more than $1 billion in grants have been 
made by the Dallas-based foundation. Cumulative for the fiscal 
year 2007 and fiscal year 2008 year, they have awarded $245,155 
in grants directly to food banks and $284,964 in grants to 
support other hunger-relief programs.
    On a national level, Americans and our Nation's companies 
are assisting to end hunger and malnutrition by joining 
organizations like Feeding America. Today we have the pleasure 
of hearing from the Nicole Robinson from Kraft Foods Global, 
one of the manufacturing partners for this organization.
    Feeding America, the Nation's leading domestic hunger-
relief charity, assists through a nationwide network of member 
food banks fighting to end hunger. They provide food assistance 
to more than 25 million low-income people in the United States, 
supplying more than 200 food banks throughout the 50 States, 
the District of Columbia and Puerto Rico. Over 2 billion pounds 
of food and grocery products are donated annually. I think that 
is a pretty good way to help out.
    ConAgra Foods, which has contributed to Feeding America for 
over 15 years, also has a foundation that is leading the charge 
to raise awareness of the 12 million children that go hungry, 
and pursue sustained solutions to end child hunger. The 
foundation is committed to building a community of people who 
are passionate about ensuring access to the food and facts that 
they need to eat nutritiously, live balanced lifestyles, and 
excel in school and life.
    Providing fair trade policies not only assists with the 
food and hunger issues plaguing America today, but also reaches 
those outside the United States that suffer from malnutrition 
and starvation. I appreciate the president of Bread for the 
World, David Beckmann, for testifying in front of us today, and 
I hope he discusses some of the trade and subsidy policies that 
assist in the goal of ending global hunger and any policies 
that inhibit that goal.
    With charitable donations from American businesses and 
individuals, fair trade opportunities, education and awareness 
and government safety nets, I am certain that we can ensure 
that every American has the appropriate nutrients for a healthy 
life.
    I do want to thank you again, Mr. Chairman, not only for 
holding this important hearing, but I look forward to working 
with you and my other colleagues who are here today at this 
very important hearing. I want to thank each of those that are 
here today with the thought that we can do better.
    [The prepared statement of Mr. Sessions follows:]
Prepared Statement of Hon. Pete Sessions, a Representative in Congress 
                        From the State of Texas
    Good afternoon. I would like to thank Chairman McGovern for holding 
this hearing. I would also like to thank Congresswoman Jo Ann Emerson 
and our second panel of expert witnesses for testifying here today on 
the extremely important issue of food and nutrition.
    In 2007, the U.S. Department of Agriculture reported that 36.2 
million people in the United States were living in households 
considered to be food insecure. Of these 36.2 million about 12 million 
were children. Texas is one of the highest food insecurity states in 
America. Malnutrition has devastating effects for both the mental and 
physical capacity of children who receive inadequate nutrition. Without 
the appropriate nutrients, there could be harmful effects to learning, 
development, productivity, physical and psychological health and family 
life.
    Generally, Americans suffer from a less severe form of malnutrition 
than those around the globe. This is due to the generosity of the 
American public, American companies that provide a proactive role in 
fighting hunger, trade policies and government safety net programs. A 
good example in my district is Dean Foods, a Dallas based company, 
which in 2006 provided a $1.25 million gift to Children's Hospital in 
Dallas to create the Dean Foods L.E.A.N Families Program. This is a 12-
week program administered through the hospital's nutrition department 
that provides patients and their families intense weight-management 
therapy while encouraging healthy habits throughout life.
    Our nation's grocery manufacturers are assisting to ensure their 
customers live healthier lives by providing tools to help make better 
food choices and offering a variety of affordable, nutritious products. 
Safeway has created FoodFlex, a free online nutritional tool that 
allows Safeway shoppers to receive a nutritional snapshot of their 
grocery purchases, benchmark their nutritional performance against USDA 
guidelines, identify food alternatives and create a personalized 
shopping list to achieve their nutritional goals.
    The Communities Foundation of Texas (CFT), another Dallas based 
organization, has been a partner with donors for raising the quality of 
life in my community for over 50 years. Since 1953, more than $1 
billion in grants have been made by the Dallas-based foundation. It has 
grown along with North Texas to become one of the largest community 
foundations in the nation. Cumulatively, for the FY07 and FY08, CFT 
awarded $245,155 in grants directly to food banks and $284,964 in 
grants to support other hunger relief programs.
    On a national level Americans and our nation's companies are 
assisting to end hunger and malnutrition by joining organizations like 
Feeding America. Today, we have the pleasure of hearing from Nicole 
Robinson from Kraft Foods Global, one of the manufacturing partners for 
this organization. Feeding America, the nation's leading domestic 
hunger-relief charity, assists through a nationwide network of member 
food banks fighting to end hunger. They provide food assistance to more 
than 25 million low-income people in the U.S., supplying more than 200 
food banks throughout the 50 states, the District of Columbia and 
Puerto Rico. Over 2 billion pounds of food and grocery products are 
donated annually.
    General Mills is another private company that has directed product 
donations to Feeding America for over 30 years. General Mills is 
consistently ranked among the top ten contributors of food in the 
United States. During fiscal 2008, General Mills donated over $18 
million in products to Feeding America. Organizations like this would 
not exist without the generous donations and contributions from private 
business.
    ConAgra Foods, which has contributed to Feeding America for over 15 
years, also has a Foundation that is leading the charge to raise 
awareness of these 12 million children in food insecure households and 
pursue sustainable solutions to end child hunger. The ConAgra Foods 
Foundation is committed to building a community of people who are 
passionate about ensuring that America's children have access to the 
food and facts they need to eat nutritiously, live balanced lifestyles, 
and excel in school and life. While one in every eight children in 
America doesn't know where their next meal will come from, we also have 
to recognize that one in every five children are obese. We need to 
ensure that not only do our children have food, but they get the 
appropriate nutrients to live long and healthy lives.
    Providing fair trade policies not only assists with the food and 
hunger issues plaguing Americans today, but also reaches those outside 
the U.S. who suffer from malnutrition and starvation. I appreciate the 
President of Bread for the World, David Beckmann, for testifying in 
front of us today, and I hope he discusses some of the current trade 
and subsidy policies that assist in the goal of ending hunger and any 
policies that inhibit that goal.
    I recognize the importance of providing quality nutrients to all 
Americans, whether they are children, adults or seniors. America has 
the necessary resources to ensure that no one goes hungry. Through 
charitable giving, the Giving USA Foundation estimated in 2008 that 
$29.64 billion was donated for ``human services.'' While this does not 
only represent food and nutrition, it is a strong testament that this 
is a generous nation that wants to ensure a successful future for all 
Americans. It is extremely important that Congress does everything in 
its power to protect and encourage charitable giving from individuals 
and companies.
    With charitable donations from American businesses and individuals, 
fair trade opportunities and government safety nets, I am certain that 
we can ensure that every American has the appropriate nutrients for a 
healthy life.
    I want to thank Chairman McGovern again for holding this important 
hearing and I look forward to working with him and all my colleagues on 
the Rules Committee to ensure that no American goes hungry. Thank you.

    Mr. McGovern. I thank the gentleman for his comments.
    We are joined by Mr. Arcuri and Dr. Foxx.
    Mr. Arcuri.

 OPENING STATEMENT OF HON. MICHAEL ARCURI, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Arcuri. Thank you, Mr. Chairman, and thank you for your 
work on hunger issues. I commend you for your tireless work on 
this critically important issue.
    Skyrocketing health care and food costs combined with 
rising unemployment cause many Americans to go without food. 
That is an absolutely unacceptable situation in the most 
prosperous country in the world. In my district in upstate New 
York, unemployment numbers are alarming. There are two counties 
where they actually exceed 10 percent and more, and more 
families are struggling to make ends meet.
    I commend you, Chairman McGovern, for your working to 
address hunger issues through H.R. 2297. A White House 
Conference on Food and Nutrition would be an invaluable tool in 
the fight against hunger in this country. I think the last one 
was held about 40 years ago----
    Mr. McGovern. 1969.
    Mr. Arcuri [continuing]. When President Nixon was in the 
White House. I think that is far too long. I think it is high 
time that we do it again. Certainly we can learn from some of 
the things that we did right and certainly some of the things 
we did wrong, but I think it is high time we do that.
    I look forward to hearing from the witnesses today who have 
been on the front line of hunger issues.

 OPENING STATEMENT OF HON. VIRGINIA FOXX, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. McGovern. Dr. Foxx.
    Dr. Foxx. I will make my comments very brief, but I, too, 
would commend you and Congresswoman Emerson for your passion 
for this and commitment to this issue, and would tell you that 
my church, my community, all communities in my district, also 
work on food drives and help the food pantries in our area and 
have done a lot when crisis times have come in our area. I look 
forward to the hearing, and I want to thank all of the folks 
here today.
    Mr. McGovern. Thank you very much.
    I am very proud to introduce our first witness, the 
Honorable Jo Ann Emerson of Missouri, who has been a powerful 
advocate for all initiatives to end hunger.
    As I said at the beginning, this is not a partisan issue. 
Hunger knows no politics. But Congresswoman Emerson has been 
out there on the front line fighting to raise awareness and to 
get things done, and she has been pretty successful over the 
years.
    I am happy she is here, and I am honored she is a cosponsor 
on this bill. I now yield to the Honorable Congresswoman Jo Ann 
Emerson.

                       WITNESS TESTIMONY

STATEMENT OF HON. JO ANN EMERSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mrs. Emerson. Thank you, Mr. Chairman and distinguished 
members of the committee. I really appreciate the opportunity 
to appear before you today and discuss the proposed White House 
Food and Nutrition Conference and H.R. 2297. Let me also thank 
the Chairman for the tremendous leadership he has shown on this 
issue for so many years. I feel certain that one of these days 
soon we will solve this crisis.
    I was very pleased to hear Mr. Sessions talk about the 
incredible generosity of companies like Kraft Foods and the 
private sector, whether it is Wal-Mart or a lot of different 
food service organizations, who give a lot of donations for our 
food banks and the like, and, working together with the faith-
based organizations like Bread for the World and Feeding 
America and others, have made an enormous difference, as have 
our safety nets provided by the government through SNAP, 
through the Commodity Supplemental Food Program and the like.
    But it is still a cold, hard fact that in spite of all of 
that, in spite of the generosity, that hunger still exists in 
America to the numbers that both you, Chairman McGovern, and 
Mr. Sessions indicated: 36.2 million Americans live in food-
insecure households--this is back in 2007, which are probably 
the most recent numbers--23.8 million of whom were adults and 
12.4 million who were children. And the percent of households 
who experience hunger and the number who are forced to make 
really, really difficult choices between necessities to avoid 
hunger had all increased over the past decade, even before 
unemployment brought about the current economic crisis.
    I will tell you that in my home district of 28 counties, 
the 20th poorest congressional district in America, we have 
more food banks with little or no food to give out because of 
this added stress with the newly unemployed looking for every 
opportunity to be able to feed their children. We have in 
Missouri just incredible social workers who have been very 
active, and we have one of the highest food stamp participation 
rates in the country. But yet at the same time, we continue to 
rank near the bottom in terms of food security and hungry 
individuals.
    So, clearly, in spite of all of this, we are not getting 
the job done, and that is why it is so critically important to 
figure it out, and that is why it is so important to have this 
White House Food and Nutrition Conference that we are 
requesting in H.R. 2297.
    The Obama administration has also requested $5 million for 
Hunger-Free Community grants in the fiscal year 2010 Department 
of Agriculture budget. These grants will be used to support the 
development and implementation of local strategies to fight 
hunger. I also think this request recognizes the need for 
increased organization and a fuller strategy at the local level 
to make sure we are using all the tools available to fight 
hunger, and we are also using them efficiently, because we have 
so many people, we have a certain amount of resources, and it 
is obviously incumbent upon us to find efficiencies so we can 
feed more people.
    Last week we had Secretary of Agriculture Tom Vilsack in 
our Agriculture Appropriations Subcommittee, and I asked him 
whether there was a comprehensive, government-wide strategy to 
combat hunger. His answer actually led me to believe that there 
was not one.
    But just like the Hunger-Free Community grants can help 
develop local strategies, I just feel very strongly that this 
White House Food and Nutrition Conference that we call for in 
H.R. 2297 can help us provide a strategy, a roadmap, if you 
will, to help us reduce hunger rates in the United States.
    Considering that we are the richest country in the world, 
it is a public embarrassment that we would not be able to feed 
every single person or find a means by which every single 
person in this country would be fed three decent meals a day.
    So, in essence, what our bill does is to require the 
President of the United States to call a conference on food and 
nutrition, and I think that such a conference holds great 
potential, and it would serve several purposes, each of which 
will fill an important need. I think that it will help us 
identify viable solutions to end hunger; it will allow us to 
review current programs and activities, identify what has 
worked and what hasn't, and there are a lot; and importantly, 
it would also, I think, increase the coordination between 
government agencies and entities. We all know sometimes that 
the right hand doesn't always talk to the left hand within the 
government.
    You know, interestingly, too, Mr. Chairman, last week while 
we were doing some research, my staff was doing some research, 
on domestic child hunger, Justin did a little Google search, 
and one of the first articles to appear was from the Tehran 
Times in Iran. I am personally less concerned that the Iranian 
spin machine is highlighting hunger in the U.S., but I will 
tell you the fact that that was one of the first hits we made, 
the fact that more newspapers and media outlets in this country 
are not focusing on hunger, is a shame. If they are looking for 
news stories, this is one that is absolutely critical.
    So, I am hopeful that this conference will actually move 
hunger closer to the forefront of the national agenda and 
hopefully produce positive results so that we perhaps don't 
have the need for these types of news stories.
    Ultimately, however, the most important message that should 
be taken from H.R. 2297 is its first finding, as you said, 
Chairman McGovern: Hunger and undernutrition are political 
conditions that can be solved. Hunger knows no partisanship. 
The quicker that Congress and the administration fully accept 
this statement and the responsibility that accompanies it, the 
quicker we can have an America where no child suffers from 
hunger, where no student must suppress hunger pains to study, 
where no adult must sacrifice for their child, and no senior 
must choose between food and medicine.
    So, thank you all for your time. I urge your support for 
H.R. 2297. I am happy to answer any questions you might have.
    Mr. McGovern. Thank you very much for being here.
    [The prepared statement of Mrs. Emerson follows:]

Prepared Statement of Hon. Jo Ann Emerson, a Representative in Congress 
                       From the State of Missouri

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to appear before you today and discuss the proposed 
White House Food and Nutrition Conference in H.R. 2297. I appreciate 
the leadership being shown by the Chairman and this committee on an 
issue that is near and dear to my heart--hunger.
    It is a cold fact of life in America that hunger exists. In 2007, 
36.2 million Americans lived in food insecure households, 23.8 million 
adults and 12.4 million children. The percent of households who 
experience hunger and the number who are forced to make difficult 
choices between necessities to avoid hunger had all increased over the 
past decade even before the rise in unemployment brought about by the 
current economic crisis. In Missouri, while we have very able and 
active social workers and one of the highest participation rates among 
food stamp eligible individuals, we continue to rank near the bottom in 
terms of food security and hungry individuals. Clearly, what we are 
doing is not solving the problem.
    The Obama Administration has requested $5 million for Hunger-Free 
Community Grants in the FY2010 Department of Agriculture budget. These 
grants can be used to support the development and implementation of 
local strategies to fight hunger. This request, I believe, recognizes 
the need for increased organization and a fuller strategy on the local 
level to ensure that all the tools available to fight hunger are being 
used, and used efficiently. Last week I had the opportunity to ask the 
Secretary of Agriculture during an Agriculture Appropriations hearing 
if there was a comprehensive government-wide strategy to combat hunger. 
His answer led me to strongly believe one does not exist. Just like the 
Hunger-Free Communities Grants can help develop local strategies, the 
White House Food and Nutrition Conference called for in H.R. 2297 can 
help provide a strategy to begin reducing hunger rates in the United 
States.
    H.R. 2297 would require the President of the United States to call 
a conference on food and nutrition. Such a conference holds great 
potential and would serve several purposes, each of which filling an 
important need. It has the potential to spur the identification of 
viable solutions to end hunger; to review current programs and 
activities, identifying what has worked and what hasn't; and, 
importantly, the conference should increase coordination between 
government entities.
    Mr. Chairman, last week while researching domestic child hunger, my 
staff started with a simple search of Google News, and one of the first 
articles to appear was from the Tehran Times in Iran. Personally, I am 
less concerned that the Iranian spin machine is highlighting hunger in 
the U.S. and more concerned that fewer American papers have focused on 
it. This conference will move hunger closer to the forefront of the 
national agenda and, hopefully, produce positive results so we do not 
have news stories like these at all.
    Ultimately, however, the most important message that should be 
taken from H.R. 2297 is its first finding: hunger and undernutrition 
are political conditions that can be solved. The quicker Congress and 
the Administration fully accept this statement, and the responsibility 
that accompanies it, the quicker we can have an America where no child 
suffers from hunger, where no student must suppress hunger pains to 
study, where no adult must sacrifice for their child and no senior must 
choose between food and medicine.
    Thank you for your time today, and I urge your support for H.R. 
2297.

    Mr. McGovern. I feel like when I am questioning you, I am 
kind of questioning myself.
    Mrs. Emerson. Then I guess you don't need to ask me any 
questions.
    Mr. McGovern. I want to make clear here that people 
sometimes will say, oh, another conference, another summit. Why 
do we have so many summits and conferences? Does it really 
change anything? Well, some don't, and some do. There is no 
argument that the conference that was held in 1969 on this 
issue raised awareness and resulted in action. So that is an 
example of something that was achieved from a conference at the 
White House.
    Our point, I think, of wanting this to happen is not just 
to have another reason to get together and talk about this 
issue, but it is to get everybody who is working on this issue 
in the same room and help coordinate one comprehensive plan so 
we all know what we are doing, we all take our assignments and 
can implement them.
    As you pointed out in your statement, the issue of hunger 
is addressed by multiple agencies, as it is by multiple 
committees. Food stamps, or SNAP, is the Agriculture Committee 
and USDA. School lunches, that is Education and Labor and USDA, 
but also impact the Department of Education. There are programs 
at DOD. There are numerous various health departments and 
agencies that have had their fingers in the hunger issue in 
some way or somehow, but they don't get together on a weekly 
basis and talk. So you have duplication or triplication or 
quadruplication, if that is a word, and in some cases you have 
all areas of the population that fall through the cracks 
because it is not coordinated properly.
    So I think having the opportunity to get everybody in 
government who is working on this in the room, and then people 
in the nonprofit sector and in the private sector who are 
working on this in a room, and let us figure out how we can 
pool our resources more effectively and more efficiently and 
end hunger, because I think one of the first issues is making 
sure that everybody has enough to eat, and that the food they 
eat is actually nutritious, because that results in other 
problems. But the second part of the conversation needs to be 
how do we move beyond that so populations are not relying on 
the good will of churches or food banks or even government 
programs? How do we increase people's purchasing power so they 
can become more independent and not have to rely on charity or 
on the safety net?
    I think that is the issue that I want to be clear on, that 
this is not just about a conference to talk about things, it is 
not just a conference to figure out how to provide and 
strengthen the safety net, it would even go beyond that. And I 
think that you agree with me.
     Mrs. Emerson. I do agree with you. One of the things that 
is very frustrating--well, here is a perfect example. At the 
Centers for Disease Control, not that they specifically have 
anything to do with hunger, I am just going to use it as an 
example, there are certain diseases, certain different--whether 
it is breast cancer or whether it is cerebral palsy--actually 
they don't do this for CP, it is something they should. They 
actually do the surveillance so, you know, every single program 
in every single city, every single doctor who has expertise in 
this particular disease and all of the latest research, all you 
do is click and find it. We do not have that information.
    So in the State of Missouri, for example, we have Bread for 
the World, we have all of these organizations, and we have a 
SNAP program, and we have CFSP. We have lots of things. We have 
a Boot Heel food bank. We have a St. Louis food bank. They sort 
of work together peripherally, but not really. So a lot of 
product might be going one place, and, as you say, nothing is 
going somewhere else, and it is very disorganized.
    So if this could be one time that we actually get it all 
out there, organize it, I do think it would be much more 
efficient, and it may end up at the end of the day costing the 
taxpayers less money if we can simply be efficient. But when 
the right hand and left hand don't know what they are doing, 
and somebody in the Ag Department is working on the issue, or 
somebody at the Department of Education or Labor is working on 
the issue, I can assure you, they are not talking or 
coordinating their efforts. That, to me, is just a waste.
    Mr. McGovern. That is why I think we need to suggest to 
Secretary Vilsack that it is important that there be this kind 
of coordinated strategy, because it won't be solved just in the 
Department of Agriculture.
    President Obama made a pledge he wants to end childhood 
hunger by 2015. That is a big task.
    Mrs. Emerson. It is a big task, but I think it is 
definitely doable if we are organized about it.
    Mr. McGovern. But it is not going to just happen at the 
Department of Agriculture; It is going to need more than just 
the Department of Agriculture.
    Just one final thing, and that is I think people also need 
to appreciate the link between hunger and bad health. We are 
talking about taking on health care reform, and the big issue 
is how do you control health care costs? One of the best ways 
to control health care costs is not get sick and not have 
people end up with chronic diseases that will plague them for 
the rest of their lives.
    I toured the Boston Medical Center not too long ago. They 
serve an underserved community, a very low-income community. 
And the chief pediatrician there told me when kids come into 
the emergency room with strep throat or the croup or with 
something, that normally you would just give them medicine and 
tell them to go home.
    Kids who are hungry, kids who are food insecure end up 
staying in the hospital for a day or two or more. The costs--
forget the moral implication of wanting to feed people--the 
costs associated with that are phenomenal. Even the tie-in 
between food insecurity and obesity, families that can't afford 
nutritious food want to try to keep their kids just healthy, if 
not quiet during the week, you end up buying stuff that is not 
good for you. So we see this linkage, you know, which a lot of 
people have a tough time connecting the dots here, but between 
food insecurity, bad nutrition and obesity.
    How many young kids who are obese will end up with diabetes 
or will end up with high blood pressure or ultimately heart 
disease, chronic conditions that will plague them for the rest 
of their lives? Again, if you want to talk about controlling 
health care costs, we can control those costs much more 
effectively if we just make sure that these kids have good, 
nutritious food. And for all the discussion going on in the 
health care debate right now, a lot more needs to be dedicated 
to what we are talking about here, food nutrition as well as 
exercise.
    It is incredibly important to make sure that people can 
afford nutritious food; and even in school lunches that we are 
giving kids, that we are giving nutritious foods. I have been 
to school lunch programs that are phenomenal, where kids are 
given choices, where there are salads, and there are healthy 
options. And kids normally would like to take those options. I 
have been to school feeding programs that are awful, where the 
choices are all bad. I am going to tell you, you know, we need 
to kind of get back to basics here and focus on some of these 
issues.
    Mrs. Emerson. I agree.
    Mr. McGovern. Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman.
    Jo Ann, I will admit I have not sat in on one of your 
agriculture meetings in a long, long time, but I do know that 
there is a discussion on a regular basis about exactly what we 
are talking about, and I hope--without asking any questions, I 
hope what will happen in this conference, too, is we really 
look at the rules and regulations related to subsidies and the 
other things we do to encourage or discourage food from being 
grown.
    Mrs. Emerson. Okay. I understand what you are saying.
    Mr. Sessions. That is a whole other topic. That is not what 
I am trying to say. You know more about the correlation and 
relationships than we do, and I think you would argue with me 
if we want to argue, and I am not trying to do that. There is 
enough food; it is just where it goes, and I don't know the 
facts of that.
    Mrs. Emerson. Well, technically there should be enough 
food. But keep in mind that there always needs to be a level 
playing field when you are competing in trade matters, as you 
well know, if you want to discuss the subsidy issue, which I 
know you don't. However, there is enough food. There is enough 
food on the one hand, but on the other hand, we have programs 
like the SNAP program or the food stamp program. But keep in 
mind the majority of recipients of food stamps are working 
Americans. They are not nonworking Americans.
    And then you have the TANF program, and that is for the 
assistance to needy families. I am pleased they are finally 
changing the menu on that, because, as Jim was saying, the 
choices were all very high carbs, in my opinion very unhealthy 
in many instances, but an absolutely critical program.
    I hope we are able to get this coordination, and we will be 
able to pass this bill out of the House simply because I think 
at the end of the day, we will be able to solve the problem of 
hunger in this country.
    I did a mission trip down to Nicaragua, to rural Nicaragua, 
a couple of years ago, and the worst of the poverty in my 
district was nothing compared to what I saw there, where people 
really literally had nothing and lived in a house that was made 
out of black garbage bags. But, nonetheless, it still troubles 
me that we would have 12 million-plus children in this country 
who have no food, who go hungry, or who are hungry every day, 
and so many millions of adults.
    The churches have done so much, and the private companies 
have done so much, but we are still not reaching everybody. 
Hopefully we can figure out who those people are that we are 
not reaching through a conference like this.
    Mr. Sessions. That would be the second point that I really 
want to debate, other than say with you I support this bill and 
hope this happens, but that we look at what really works and 
try to fill in the gaps where it is not working as opposed to 
where it does work, so don't overlay certain areas. You would 
be the first one to say to me, Pete, thanks a lot. But even 
with the 1 million pounds or $1 million or 1 million volunteer 
hours, even in that area there are still some gaps. Yet that we 
recognize. I am talking about where there is success, I hope 
you will let the success continue.
    Mrs. Emerson. Oh, no. Listen, we have a lot of success. 
There are a lot of issues in rural, because access is just 
difficult in rural America, and you don't have the ability to 
get to a grocery store where you can get really good choices. 
Sometimes you have got like a little 7/Eleven or Quick Shop 
place where it costs a dollar, or it was 99 cents at Quick Shop 
for one banana at my Quick Shop I was at the other day. So that 
is too expensive.
    Anyway, hopefully we will come up with some good strategies 
that help to solve this problem.
    Mr. Sessions. Then the last point I would like to make, I 
hope that there is some bit of work that a dietician would do; 
in other words, when you come in with a food stamp purchase, 
that you would understand that banana, even at $1, is more 
worth it than maybe something else for a dollar. I am not 
trying to engage in any argument.
    Mrs. Emerson. No, I appreciate your support of this bill. 
Keep in mind that the average food stamp recipient gets $3 a 
day. I did a food stamp challenge for a week. I was out to 
prove that you could eat nutritiously. But because it was my 
husband and me, I actually had a tiny bit more money to spend 
than just on myself. And I would say we ate 50 percent 
nutritious. I could buy one big iceberg lettuce that I chopped 
up and tried to expand as much as I could. And I bought one 
tomato, and I bought a cucumber, and I bought a small onion, 
and I bought a pack of chicken that was on sale.
    Jim and I did this up at Safeway with coupons. It took me 2 
hours. I had $33 to spend for 1 week. My husband was only doing 
it for 4 days, and I was doing it for a week. I had $33 to 
spend, and it took us 2 hours to shop because I kept having to 
put things back.
    Keep in mind, most people don't have--if you are working in 
a factory, you don't necessarily have that kind of time. At 
least I had the Safeway to go to. Out in some of my areas, we 
don't have grocery stores like that. So one banana for $1, that 
is one of my meals for the whole day.
    But I think we have an opportunity here to really do good 
things so that perhaps we will be less reliant on the need for 
food stamps to supplement our other food budget that we have 
personally.
    Mr. McGovern. I lived on that food stamp budget along with 
her. I relied mostly on lentils. I used to like them. I don't 
like them anymore.
    Mr. Sessions. That is a Doc Hastings-made product.
    Mrs. Emerson. I love lentils, so I gave Jim some of my 
chicken salad I made and took some of his lentils.
    Mr. McGovern. Also one other point. Some people said food 
stamps is a supplement, and it is supposed to be. But in this 
economy, again, with fuel prices what they were and are, and 
what the cost of living is in general, food stamp budgets turn 
out not to be kind of a supplement to their income, it becomes 
basically it.
    The other thing I have noticed is when you go to grocery 
stores, the lousier the food is, the cheaper it is. The better 
and more nutritious the food is, the more expensive it is.
    As Jo Ann mentioned, in some of these rural areas, we have 
those little Quick Marts. Some people can't get to a bigger 
supermarket. The same thing in the urban areas, too. We have a 
lot of people who don't have transportation, a lot of elderly 
people who have to rely on those little corner stores where 
everything is inflated because they are small. I am glad the 
stores exist, but the reality is that if you are on a fixed 
income, and you don't have much money, and you are relying on 
this food stamp benefit to basically get you through, you have 
some really lousy choices.
    But hopefully if we could all get in a room together, and I 
invite the grocers in, too, how do we work together to get this 
thing solved, because we all can put something into this, and 
then maybe we might get this done. The frustration has been for 
me is there is no plan.
    If you ask anybody in government what is the plan to end 
hunger in America, there is not one. We are going to increase 
food stamps. Fine. That is not a plan to end hunger. Or we are 
going to look at the nutrition of a school lunch program. We 
need to do that. That doesn't end hunger. We are going to 
expand charitable giving. That is great. It doesn't end the 
problem. I think connecting this all together and saying, okay, 
how do we pool our resources to do it?
    Mr. Arcuri.
    Mr. Arcuri. Thank you so much, Mrs. Emerson.
    Just an observation that I had. I live in a city, a small 
city, and there is a neighboring city that is very large, but 
we are all in the same region, and there are a lot of very, 
very small communities.
    What I have seen is as the community food banks strive to 
get more food, the big cities tend to reach out into the entire 
areas and take food from stores that normally will give it, and 
then it leaves the smaller communities more hard pressed to get 
the donations for the food banks. So in my smaller cities, they 
are constantly complaining because the nearby city that is much 
larger has a bigger staff and is better able to get the food. 
We see the smaller the community, the harder it is for the food 
banks to get their food.
    Have you noticed that?
    Mrs. Emerson. Exactly. Exactly. The way the infrastructure 
of our system works, I guess is a better way of putting it, let 
us say the biggest donation of food would go to St. Louis, and 
then it spreads out, because there is so much demand there. It 
depends on whether you are getting the donations from some of 
the stores or not. We are fortunate to have many Wal-Marts. So 
even though the types of foods are perhaps changing a little 
bit from what they used to be, we are having fewer items down 
my way, which is in southeast and south central Missouri, so 
then you have to pull from other directions.
    The Boot Heel food bank, which is a central repository for 
several of my counties, we have had some real challenges just 
being able to get enough donations to make an adequate food 
basket. You try to balance it out. Where we have had a lot of 
trouble is with meats particularly. Sometimes you can get the 
mac and cheese, but mac and cheese isn't good for you anyway. 
It is going to help somebody stay full.
    I don't know, but I think by having a discussion at a 
national level, we can get this stuff figured out. But it is 
tough.
    Mr. Arcuri. I couldn't believe how many complaints I was 
getting from my unit there, saying all of the stores that 
normally give were saying that Syracuse already came in and the 
bigger city, and we gave to them, so we don't have anything 
left for the smaller communities. It sort of trickles down. So 
I think the smaller community, the harder it is.
    Mrs. Emerson. And even if you have the ability to spend 
money at a store, sometimes it is even harder to get it in the 
smaller communities. We don't have any kind of public 
transportation system where I live. I don't know if you all do 
up there. It is a challenge. But I appreciate what you are 
saying.
    Mr. Arcuri. Thank you very much.
    Mr. McGovern. Dr. Foxx.
    Dr. Foxx. Well, I have been sitting here debating whether I 
should say anything at all today or not. There are probably few 
people in Congress who grew up as poor as I did, so I 
understand maybe better than all of you who are working at this 
vicariously, the issue of having to provide food for yourself. 
I think because my husband and I both come from that background 
and have succeeded in a time when really the people in our area 
mostly were extraordinarily poor, we have a somewhat different 
idea about how people can be helped or should be helped.
    Seriously, where I grew up, I grew up in the poorest county 
in North Carolina at the time I was growing up, and basically 
my husband has been providing for himself since he was 10 years 
old because his father died, and his mother was totally 
illiterate. Yet they managed.
    There were no food stamp programs in those days, there were 
no public help programs, yet the people in that area may not 
have had the best nutrition, but they survived. Most of the 
people that we know have succeeded pretty well, and the area 
has changed a lot, but I think it is partly what has made both 
of us very conservative and partly why we come at it from such 
a different point of view.
    I believe there is a need to help people who are extremely 
poor and have no access to food, but I think that many times 
government programs designed to help people have not done the 
things that they ought to do, and that many times our 
government itself through its policies have made things more 
difficult for people. I think that we have in many cases forced 
both parents to work because of high taxes. I think in many 
cases, because of increased rules and regulations, we have 
driven jobs overseas.
    So I come at it from a point of view of allowing people to 
do more for themselves so that they have the dignity of being 
able to do those things.
    My daughter grew up working. She worked as a cashier in a 
grocery store. If she were here, she would tell you that made a 
conservative out of her because she saw the tremendous abuse of 
food stamps by people from working in a grocery store and had a 
really big impact on her.
    So, again, I support our need to do the kind of things that 
we should do as a government and as a culture. I differ a 
little bit with Mr. McGovern that I do think the role of the 
churches is to help people in our communities who can't help 
themselves. One of the reasons I support food banks a great 
deal is because I see a great deal of community support for 
them. So while I think there may be a good reason to have a 
heightened focus on the issue, I would like to see more done in 
the private sector rather than from the governmental sector.
    Again, I have lived it. My husband has lived it. I have 
lived on less than $1 a day, Jo Ann, not just to experiment, 
but because I had to. People can do it and survive and even 
thrive. And you know what? I am still very frugal as a result 
of having lived that way.
    Mrs. Emerson. That is certainly something that I can't say 
that I have experienced before, but I do think that the point 
is clear that we have a lot of different means with which to 
try to attack this problem, and obviously the more that we can 
do from the private sector, from the faith-based community--
because all of the churches in my hometown of Cape Girardeau, 
for example, are involved in food bank-type efforts. Our 
Ministerial Council in Cape Girardeau is quite good because my 
minister happens to be the head of it, and for the Presbyterian 
Church this is an important issue and one we are trying to work 
on nationally.
    However, I daresay there are other leaders in our 
communities who ought to know exactly what is going on in the 
community with regard to this just from the private sector 
perspective, and there is not that coordination beyond just 
what our ministerial alliance does.
    So I think by having a conference like we want to have, it 
at least allows us to focus. And as Jim said earlier, if 
successful, it may well turn out that we can continue to 
diminish or we can begin to diminish the governmental piece and 
rely more on the private sector and the faith-based community.
    I will say one thing, and this is interesting, and I think 
I might have mentioned it to Jim once. Our public health 
department in Wayne County, Missouri, which is one of my poorer 
counties, actually works with their TANF recipients. They 
actually challenged all of them to grow their own fruits and 
vegetable garden. Now, fruits are a little tough to do. You can 
do strawberries or blueberries, but other fruits are too 
complicated, and we don't have that environment like you have 
in Florida, for example, or Texas, where you can grow citrus.
    But anyhow, it has been very, very important, and our 
University of Missouri Extension Service actually worked hand 
in hand with them as well. And so all of a sudden we have, 
number one, all of these gardeners, and the Extension Service 
gave them the seeds, everything, taught them how to take care 
of the soil and to properly water and stuff. But they actually 
taught them how to can, how to freeze, how to do all of this.
    So it has been a great supplemental that didn't cost 
anybody anything, other than the professionals within those 
organizations, to even challenge TANF recipients. So we have 
more fruit and vegetable gardens in Wayne County.
    But other than me, there is nobody that talks about this in 
my district, because I seem to be the only person other than 
the TANF recipients who know about it, and they don't want to 
tell anybody they are getting TANF because they are proud. It 
is a last resort for them. And most of them are all single 
mothers, I might add.
    Anyway, but I do appreciate this, and you are a good 
resource, Virginia, I think, when it comes to this issue. But 
certainly it would be our hope that by being able to get 
organized and coordinated and really know what is out there 
should be one means by which--I mean, we should know this 
before we then add just yet another Federal program or 
whatever. So that is why I think this is absolutely critical.
    Mr. McGovern. Let me just say before you can go, I want to 
be clear, too, that what I am suggesting and I think what you 
are suggesting by this conference is not simply ways how 
government can do better, it is how we can work together with 
the private sector and the nonprofit sector, the churches, the 
synagogues, the mosques that do so much, to provide food and 
figure out ways to get people beyond relying on a safety net in 
order to feed their families.
    I will say one other thing. One of the things about being 
in Congress is you get to meet a lot of different people, and 
you get to see a lot of different things that probably you 
might not necessarily see. I have been to a lot of emergency 
rooms in hospitals in Massachusetts where I have seen kids in 
emergency rooms being treated, and they are hungry. That just 
shouldn't be. Those kids need more than $1 a day to get by, and 
if their parents aren't being able to provide for them, we need 
to get it to them, because if not, you are going to end up with 
a situation, as we have been ending up with in so many cases, 
where that young kid is going to be developmentally challenged, 
is going to have a whole bunch of health problems, and we are 
going to have to work with that kid until he is an old man or 
an old woman.
    Part of what we are trying to do here is figure out how we 
can all do better. Maybe government needs to do less in some 
areas. Maybe government needs to do more in some areas. We need 
to do what works.
    Mrs. Emerson. We need to know what resources are out there 
that we just simply have no idea about.
    Mr. McGovern. I appreciate very much your coming, and 
thanks for your leadership.
    Now I would like to welcome the Reverend David Beckmann 
from Bread for the World, followed by Robert Egger from the 
D.C. Central Kitchen, and Nicole Robinson from Kraft Foods. All 
three of you can get up there together.
    Reverend Beckmann, we will begin with you.

STATEMENT OF REVEREND DAVID BECKMANN, PRESIDENT, BREAD FOR THE 
                             WORLD

    Rev. Beckmann. Thank you, Mr. Chairman. As you know, I am 
deeply grateful for your leadership and your commitment; and, 
members of the committee, I really appreciate especially your 
opening statements. I found them really heartening. The whole 
conversation is really good.
    I am David Beckmann. Bread for the World is a collective 
Christian voice urging our Nation's decision makers to end 
hunger in this country and around the world. I think this White 
House conference would help to launch an intensified nationwide 
effort to reduce hunger. The need is clear. That has already 
been talked about.
    I want to talk about the opportunity, and from the 
perspective of an organization that works on hunger in our 
country and around the world, because one thing that has really 
struck us is that the world has made dramatic progress against 
hunger and poverty over the last several decades.
    The last couple years have been terrible for hungry and 
poor people around the world. Even now, the proportion of the 
world's population that is hungry, undernourished, is much 
lower than it was three decades ago. Trade has been part of 
that. But it is just obvious to us that if Brazil and 
Bangladesh can dramatically reduce hunger and poverty, so can 
the United States.
    In our own country, in fact, there have been times when we 
made real progress against hunger and poverty. One of the best 
times actually for progress was in the 1960s and early 1970s, 
and the White House conference in 1969 was part of that. What 
we had then, and, in fact, in almost every place where there is 
progress against hunger, is a combination of economic growth 
and focused efforts. In the 1960s we had economic growth, and 
both the Johnson and the Nixon administrations really focused 
additional effort on nutrition programs, antipoverty programs, 
and we cut the poverty rate in half. We dramatically reduced 
hunger during that time.
    So progress is possible also in our own country. I think 
the U.K.'s recent experience is also relevant. When the Labor 
Party came to power in 1997, they committed their nation to 
ending child poverty. That is a commitment that all three 
parties in the U.K. now embrace; they are going to end child 
poverty. So they have put some programs and policies in place, 
they are monitoring progress, and, in fact, there has been a 
substantial reduction in child poverty in the U.K. over the 
last decade or so because there is a commitment by all the 
parties and a focused effort.
    I think it is important that our new President has made 
this commitment to end child poverty. He also wants to end 
child hunger. He wants to end child hunger by 2015. He wants to 
cut poverty in half. He has also made it clear that reducing 
world hunger is a theme in his foreign policy.
    I think the policies he outlined to end child hunger are 
really remarkably good. The policies are stronger nutrition 
programs and better nutrition programs, but it is also economic 
recovery. The policies are complementary efforts to reduce 
poverty, especially among poor families with children. And in 
the Obama statement about child hunger, there is a strong 
emphasis on what churches and other community organizations do 
in fostering a more fruitful interaction between what 
communities can do and what we can do through Federal and State 
government. So I think that this White House conference under 
this President should really focus on the goal of ending child 
hunger and try to enlist a bipartisan effort and a society-wide 
effort.
    We are not going to end child hunger in America if this is 
not a bipartisan program. So, Mr. Sessions and Dr. Foxx, the 
themes that you have sounded of work, thrift, markets, growth, 
trade, those have got to be part of the solution. If it is just 
government programs, and if it is not a bipartisan, nationwide 
effort, it isn't going to be sustained from now to 2015, and we 
are not going to succeed.
    So one thing that this White House conference could do is 
to strengthen the bipartisanship around this goal. Fortunately, 
ending hunger, reducing hunger, is an issue that has been a 
bipartisan issue for a long time. Bob Dole is a member of my 
board. He worked with George McGovern way back in the late 
1960s and early 1970s to make progress against hunger. And what 
you, Mr. Chairman and Jo Ann Emerson, now do, your close 
partnership really maintains, embodies that bipartisanship that 
I think is crucial to success in reducing hunger.
    I think a White House conference could also foster fuller 
engagement of all sectors of society. Several state governments 
are committed to ending child hunger, so what are they 
learning? How do we get more state governments involved? How do 
we get our community organizations working in a strategic way 
as part of a broader system so all that effort helps to make 
the bigger system more effective?
    Corporations are clearly part of what needs to happen. We 
are not going to end child hunger if we don't get more 
corporations that are serious about feeding people, and also 
pushing for systemic solutions that will actually solve the 
problem.
    So I think the White House conference is a great idea. And 
since I am a preacher, I just want to close with a religious 
comment. No matter what you think about God, we know that 
helping hungry people is something that is really good. It is 
holy. And I think that this White House conference could help 
to move our Nation so that we don't have widespread hunger 
among our kids.
    Mr. McGovern. Thank you very much.
    [The prepared statement of Rev. Beckmann follows:]
Prepared Statement of Reverend David Beckmann, President, Bread for the 
                                 World
    Ms. Chairwoman and members of the Committee, thank you for this 
opportunity. I am David Beckmann, president of Bread for the World, a 
collective Christian voice that urges our nation's decision makers to 
end hunger at home and abroad.
         the case for a nationwide effort to reduce hunger now
    The need is obvious. As of 2007, 36 million Americans lived in 
households that struggled to put food on the table. One in six U.S. 
children lives in a food insecure household, and food insecurity does 
long-term damage to young children.
    The recession has sharply increased hunger and poverty. Food banks 
report an increase, a 33 percent increase in requests for emergency 
assistance over the last 12 months.
    The persistence of mass hunger in our richly blessed nation is 
completely unnecessary.
    Bread for the World works to reduce hunger both in this country and 
around the world, so we are struck by the fact that the world as a 
whole has made remarkable progress against hunger and poverty over the 
last several decades. High food prices and the recession have sharply 
increased world hunger recently. But even after this setback, less than 
one in five people in developing countries are undernourished. That is 
terrible, but it is down from more than one in three in 1970.
    We haven't made sustained progress against hunger and poverty in 
this country over the last several decades, so it has become hard for 
us to imagine progress. Let me list some of the developing countries 
that have made dramatic progress: China, Bangladesh, Ethiopia, Ghana, 
Brazil, and Mexico. In each case, the reduction of hunger and poverty 
has depended on economic growth combined with focused efforts. If 
Bangladesh and Brazil can dramatically reduce hunger and poverty, so 
can the U.S.A.
    The United States has been able to reduce hunger and poverty when 
our economy was strong and we made a focused effort. In the 1960s and 
early 1970s, for example, we cut the poverty rate in half and 
dramatically reduced hunger. We expanded nutrition and anti-poverty 
programs during both the Johnson and Nixon administrations.
    The recent experience of the United Kingdom is relevant. When the 
Labor Party took office, the nation adopted the goal of ending child 
poverty and established a timetable of intermediate targets. They 
increased support for child care, raised the minimum wage, tightened 
child support enforcement, and established child savings accounts. They 
reduced the child poverty rate from a third in 1997 to 18 percent in 
2005. All three political parties in the United Kingdom now share the 
goal of ending child poverty.
               u.s. goals for reducing hunger and poverty
    President Obama has proposed that our nation commit to ending child 
hunger by 2015 and cutting poverty in half over the next ten years. He 
and Secretary Clinton have also made reducing world hunger a priority 
in our nation's foreign policy.
    I think the proposed White House conference would be very helpful. 
It could focus especially on more fully defining a strategy to meet the 
President's goal of ending child hunger in this country by 2015 and to 
begin engaging enlisting our entire society in this effort.
    President Obama outlined a plan to end child hunger in America 
during his campaign. I have attached his proposal to this testimony. I 
find it compelling. It talks about strengthening the national nutrition 
programs. The child nutrition programs are being reauthorized this 
year, and the extra $1 billion a year that the President has proposed 
is crucial to progress against child hunger. Obama's plan also calls 
for the engagement of communities. More charitable effort is focused on 
hunger than on any other social problem, and there's a lot to be gained 
through collaboration between all these community efforts, state 
governments, and the federal government. The Hunger-Free Communities 
Program, authorized in the farm bill, is one way to help foster this 
collaboration, and the President has requested an initial appropriation 
for Hunger-Free Communities in his first budget request.
    The Obama plan is also clear that nutrition programs alone will not 
end child hunger. We also need economic recovery and broader efforts to 
reduce poverty, notably tax credits for poor families.
    Secretary Vilsack and White House staff are talking about the 
President's goal of ending child hunger. But now that President Obama 
is in power, we need an official statement of the administration's 
plan. That plan will need to be debated and win broad, bipartisan 
political support.
    Mounting and maintaining a national effort to end child hunger by 
2015 will require bipartisan commitment. Hunger is not a Democratic or 
Republican issue. Fortunately, hunger has always been a bipartisan 
issue. Bob Dole and George McGovern worked together to reduce hunger in 
the early 1970s, just as Jo Anne Emerson and Jim McGovern often work 
together now.
    Some people will say we can't afford to tackle the problem of 
hunger now. But efforts to reduce hunger stimulate the economy and 
boost worker productivity. Over the longer term, no investment pays 
higher returns than providing adequate nutrition for children.
    A successful national commitment to end child hunger will also 
require active leadership by state governments, and several are already 
committed to the goal. We also need the involvement of religious and 
charitable networks, civil rights groups, unions, corporations, 
universities, and many committed individuals. The proposed White House 
conference can begin to shape a social movement to get the job done.
                          a faith perspective
    I'm a Christian preacher, so please permit me to speak briefly from 
the perspective of faith. As I have come to realize that hundreds of 
millions of people around the world are escaping from hunger and 
poverty, I've become convinced that this is God moving in our history. 
It is the great exodus of our time.
    No matter how you think about God, it's hard to imagine that God is 
not impatient with the persistence of mass hunger in our richly blessed 
country. I'm hoping that we will emerge from this economic crisis as a 
better country. And what change would be more important ethically than 
ending widespread hunger among America's children?

[GRAPHIC] [TIFF OMITTED] 56021A.001

[GRAPHIC] [TIFF OMITTED] 56021A.002

[GRAPHIC] [TIFF OMITTED] 56021A.003

    Mr. McGovern. Mr. Egger.

 STATEMENT OF MR. ROBERT EGGER, PRESIDENT, D.C. CENTRAL KITCHEN

    Mr. Egger. Thank you, everybody, for this opportunity. I am 
here to testify, of course, about the need, but also, as my 
friend David suggested, about this amazing opportunity for a 
White House Conference on Food and Nutrition.
    For those of you who don't know, I work just down the Hill 
from this Chamber at the D.C. Central Kitchen. Every day we 
collect almost 2 tons of food from Federal buildings, 
restaurants, hotels and other food service businesses, which we 
use to train unemployed men and women, many of whom are 
homeless or fresh from prison, for jobs in the very businesses 
which donate the food. Since opening on Inauguration Day 1989, 
we have distributed 22 million meals and placed 700 men and 
women in food service jobs.
    In addition, I travel extensively throughout the country, 
first to help open similar community kitchens in most of your 
districts, and recently to start a new project we have called 
Campus Kitchens, which interestingly there is one at Wake 
Forest, one at Baylor, and soon one at Boston University.
    In all of these travels, what I see is, frankly, very 
troubling, and I am going to speak here more to almost the 
business side of hunger, because donated food for our national 
network of kitchens, food banks and pantries relies upon a 
rapidly decreasing supply. It is--and this has to be 
understood--lost profit for the businesses that donate it, and 
the advent of new inventory controls and alternate markets, 
this is taking up what used to be a steady stream of 
nutritionally dense donations and turning it into a trickle.
    In short, our supply of food is decreasing at the very 
moment the need is increasing.
    And I am not speaking about the current need that has been 
exacerbated by our economic downturn. While this is immediate 
and pronounced, it will also likely be mitigated when America's 
economic ship is righted.
    And this next part, I am really glad to be looking up under 
the watchful glare of Claude Pepper, who was the last person in 
this body who really spoke passionately and consistently about 
our elders. What I am speaking about is the fact that 80 
million baby boomers are going to be coming right down the 
road. Every day in America, 12,000 people turn 60. There is a 
waiting list in half of American cities today for Meals on 
Wheels.
    And, again, there are 80 million people coming. This 
generation will outlive every previous generation by an 
estimated 10 to 20 years. Yet the level of saving for this 
generation will most likely be insufficient to ensure that they 
will be able to afford anything resembling their current 
lifestyle. Simply put, we can predict with alarming accuracy 
that there is going to be a wave of older Americans who will 
need substantial and sustained nutritional aid.
    This will be a very, very different group than the prideful 
generation that Representative Emerson spoke of, people who 
avoided the stigma. This new generation are already leaving 
traditional senior centers and congregant meal sites and they 
will require most likely demand meals that will be far more 
nutritionally complex and varied than were currently provided 
by charitable outlets. In short, they are not our grandfathers' 
seniors.
    So now is the time to really look hard. Again, this is the 
powerful opportunity to really look at childhood hunger, senior 
hunger, but more importantly, I think, as everyone suggested, 
the amazing opportunities we have to reorganize what is already 
here.
    For example, the current Federal reimbursement rate for a 
typical senior meal is close to $5 per meal. In rural 
communities where small farms still operate, programs-that 
purchase local food will be able to elevate the impact of 
Federal funds while also serving more nutritious meals to our 
elders.
    This new generation will also want to maintain activity as 
long as possible, so linking food availability to volunteering 
could also be a way great way to ensure the physical and social 
well-being of our elders.
    Intergenerational food programs--and I am just going stop a 
second to say, we have built a system in which we feed children 
here and seniors here. So the idea of intergenerational 
programs could be a tremendous way for seniors to not only 
transfer knowledge at after-school programs, but also be 
involved in intergenerational service programs. And speaking 
for the program I work with, there are 60,000 school-based 
cafeterias where we could potentially have intergeneration 
after school, but where, frankly, we could produce for a 
generation of working Americans healthy, reasonably priced 
meals to go made from local foods, that are involved in job 
training programs and also, again, give our kids access to 
cafeterias as learning centers so we can talk about nutrition 
but also math, science, history and get community services at 
the same time.
    Historic charity has served our country well; however, the 
era of extra is coming to an end. The entire system relies on 
extra food, extra money, extra clothing, extra time; and we are 
just running out of that. A White House conference could pave 
the way for a new approach, one that incorporates revenue-
generating employment projects, sustainable agriculture, 
school-based generational programs, along with many other 
important ideas that emphasize the value of our elders.
    I just want to add on two more things, based on some of the 
comments I heard earlier. A spectacular area to talk about--and 
I think Representative Arcuri was talking about small rural 
communities. Very few rural communities have processing 
centers. In fact, what you have in many states is fresh fruit 
and vegetables oftentimes that aren't of the grade that is 
available to be sold. There is no place to process them except 
for sending them outside the state, and then they have to be 
sold back to people in the state. So rural processing plants 
are an amazing opportunity that is sitting right there.
    And the other thing I wanted to point out is, one of the 
top five things our country ever did was create a land grant 
university system. And the land grants were built around the 
agriculture schools. And those ag schools administer 4-H, WIC, 
and the entire extension program, and there is probably no 
greater existing resource than the American extension system. 
It is a little bit old and I think it is ideally suited for the 
kind of changes we are talking about. But this will only be 
brought about, I think, with the kind of leadership that I 
think Mr. McGovern is alluding to in calling for this 
conference. So I heartily approve it.
    Mr. McGovern. Thank you very much.
    [The prepared statement of Mr. Egger follows:]

Prepared Statement of Mr. Robert Egger, President, D.C. Central Kitchen
[GRAPHIC] [TIFF OMITTED] 56021A.004

[GRAPHIC] [TIFF OMITTED] 56021A.005

    Mr. McGovern. Ms. Robinson. Welcome.

  STATEMENT OF MS. NICOLE R. ROBINSON, DIRECTOR OF CORPORATE 
               COMMUNITY INVOLVEMENT, KRAFT FOODS

    Ms. Robinson. Thank you.
    Good afternoon, Mr. Chairman, Ranking Member Sessions, and 
members of the subcommittee. I am Nicole Robinson, Director of 
Corporate Community Involvement at Kraft Foods, and I am 
sincerely honored and privileged to join you here today to 
share with you a little about Kraft Foods' efforts to improve 
nutrition and hunger. I applaud you for your commitment and 
attention to this most pressing social issue.
    As the second largest food company in the world, Kraft 
Foods is really acutely aware that many men, women and children 
face hunger. In the U.S. alone, 36 million, nearly one in 
eight--quite staggering. And many of them lack access to the 
nutritious fresh fruits, vegetables, and dairy products 
necessary to avoid diseases like obesity, diabetes, and other 
chronic illnesses. So we are very concerned about that.
    With the recognition that these challenges cannot be 
resolved alone, Kraft Foods welcomes the opportunity to partner 
with nonprofit organizations and government. As embodied in 
your bill, we share your desire to foster a high-level dialogue 
on this effort.
    To that end, a little bit about Kraft Foods: We have 
donated nearly $770 million of cash and food over the last 25 
years to address hunger, and we have recently pledged $180 
million over the next 3 years to address malnutrition around 
the world. By 2010, we will have programming in the U.S., 
Indonesia, Philippines, China, Australia, Brazil, Russia, and 
select European markets; and with your permission, I would like 
to highlight a few of these efforts.
    In the U.S., I would like to say that Feeding America, our 
partnership, has really been rooted in that idea of 
collaboration. We are proud of our community nutrition program, 
which was designed to improve the quality and increase the 
quantity of food distributed through food banks. If you think 
about the early era of food banks, in the beginning it was 
primarily canned goods and other shelf-stable items, and Kraft 
Foods made a deliberate effort to, over the course of this 
decade-long partnership, award 600 grants across 46 States 
which we are proud to say today delivered over 1 billion 
servings of fresh food. So we are quite proud of that effort.
    Now, during this unprecedented time of increased demand, 
during this economic environment, we have awarded Feeding 
America another $4.5 million over the next 3 years to purchase 
25 mobile pantries. And mobile pantries are really a viable 
solution in communities where families are far away from food 
banks or pantries or grocery stores; the pantry brings the food 
to them. It is really a traveling pantry on wheels, and 
particularly in urban settings where there is an increase in 
``food deserts''--places where there are no grocery stores, it 
is another viable option.
    I have had the opportunity to volunteer in several of these 
pantry distributions. Most recently I served on a Saturday 
morning on Chicago's West Side. Although the distribution 
begins at 9 o'clock in the morning, I thought, well, I will 
arrive early, 8:00 a.m., and it was kind of sobering to see 200 
to 300 people lined up when I arrived at 8:00, and many of them 
had been there as early as 6:00 a.m.; and I think that is 
certainly a testament to the need that is out there and exists 
today.
    But I am happy to say that by June we will have mobile 
pantries in New York; Chicago; San Antonio; Madison, Wisconsin; 
Central Valley, California; Cincinnati, Ohio; Newberry, South 
Carolina.
    But we are also--that is a little bit about what we have 
done in the U.S., but we are also very sensitive to the 
prevalence of malnutrition outside of our borders which 
threatens the health and well-being of children around the 
world. In the Philippines, for example, there are 2.9 million 
hungry children, and in Indonesia it is a staggering 13 million 
undernourished children. And to that end, earlier this year we 
awarded a $3 million grant to Save the Children for the next 3 
years to help address malnutrition in those countries.
    So we are very excited about that effort as well; and that 
is just what we are doing on the corporate end, and it doesn't 
really stop there. It then begins with our employees, and they 
are just as committed. The spirit of volunteerism is across our 
organization. We have a senior executive that is on the board 
of Feeding America. We have another that is on the board of the 
Congressional Hunger Center, and we have employees at food 
banks across our plants, our distribution centers. Everywhere 
they either serve on boards or they are volunteers at pantries, 
they are either packing food or distributing food; so we are 
equally proud of that.
    But there are also higher skilled opportunities and, in 
fact, we have a partnership with the United Nations Private 
Sector Program, and since 2001 Kraft Foods has sent over 100 
employees to 29 countries to assist farmers, agencies, and 
manufacturers so that they can learn how to produce food in 
country, which I think is really important. And we have had 
volunteers in Albania, West Africa, Ecuador, Fiji, Grenada and 
Nicaragua, among others.
    So, in closing, I would just like to say that Kraft really 
does have a strong appreciation for the role that private 
industry can play. We have done a lot and we have a commitment 
to continue to do so. The partnership between us and the 
nonprofit community across the globe has helped communities 
have better access to nutrition.
    Again, we are honored to partner with you in this effort, 
and many thanks for this opportunity.
    [The prepared statement of Ms. Robinson follows:]
  Prepared Statement of Ms. Nicole R. Robinson, Director of Corporate 
                   Community Involvement, Kraft Foods
    Good afternoon Mr. Chairman, Ranking Member Sessions and members of 
the Subcommittee. I am Nicole Robinson, Director of Corporate Community 
Involvement at Kraft Foods.\1\ It is a privilege to join you today to 
highlight Kraft Foods' efforts to end hunger and improve nutrition in 
America. I commend you, Chairman McGovern and Ranking Member Sessions, 
for your commitment to this important cause.
---------------------------------------------------------------------------
    \1\ Kraft Foods (http://www.kraftfoodscompany.com) makes today 
delicious in 150 countries around the globe. Our 100,000 Kraft Foodies 
work tirelessly to make delicious foods consumers can feel good about. 
From American brand icons like Kraft cheeses, dinners and dressings, 
Maxwell House coffees and Oscar Mayer meats, to global powerhouse 
brands like Oreo and LU biscuits, Philadelphia cream cheeses, Jacobs 
and Carte Noire coffees, Tang powdered beverages and Milka, Cote d'Or, 
Lacta and Toblerone chocolates, our brands deliver millions of smiles a 
day. Kraft Foods (NYSE: KFT) is the world's second largest food company 
with annual revenues of $42 billion. The company is a member of the Dow 
Jones Industrial Average, Standard & Poor's 500, the Dow Jones 
Sustainability Index and Ethibel Sustainability Index.
---------------------------------------------------------------------------
    As the second-largest food company in the world, Kraft Foods is 
acutely aware that hunger ranks among our most pressing social 
problems. Thirty-six million Americans--nearly one in eight--are 
hungry. And many more cannot afford fresh fruits, vegetables and diary 
products that can help them avoid obesity and diseases related to 
calorie-rich, nutrition-poor diets.
    Kraft Foods is pleased to join you in your efforts to eradicate 
hunger in this country, and throughout the world. We share your 
desire--as embodied in the Chairman's Bill--to foster a high-level 
dialogue on the subject. And we welcome the opportunity to partner with 
hunger relief organizations like those represented here today and with 
the federal government to find viable, effective solutions to this 
problem.
    To that end, I am proud to report that around the world Kraft Foods 
has donated nearly $770 million in cash and food over the last 25 years 
to support hunger relief. And we have pledged an additional $180 
million over the next three years to address malnutrition globally. By 
2010, we will have hunger programs in the US, Indonesia, the 
Philippines, Russia, Brazil, Australia, China and select European 
markets.
    As large as those numbers are, they only provide a general 
perspective on our efforts to combat hunger and malnutrition. With your 
permission, I would like to highlight some of our specific efforts.
              collaboration--kraft foods & feeding america
    Here in the United States, Kraft Foods is a founding corporate 
partner of Feeding America (formerly America's Second Harvest) and 
remains among the organization's top supporters today. Our partnership 
is rooted in the spirit of collaboration demonstrated by the Community 
Nutrition Program, which works to increase the quality and quantity of 
food distributed to families via the food bank network.
    I am particularly pleased to note to this audience that over the 
course of this decade-long partnership, we have provided needy 
Americans with 1 billion nutritious servings of fresh produce, dairy, 
and much needed protein-rich meat items.
    And we aren't finished yet. Going forward, Kraft is evolving the 
Community Nutrition Program initiative. We recently announced a 3-year, 
$4.5 million grant to Feeding America to launch the national Kraft 
Mobile Pantry Program. We learned from Feeding America that rural food 
pantries frequently are located more than 120 miles from the nearest 
food bank. And in urban settings, there is an increase in ``food 
deserts''--places where there are no grocery stores or supermarkets 
within walking distance. The Kraft Mobile Pantry Program will rollout 
25 mobile pantries that will bring nutritious food into these 
underserved neighborhoods.
    On average, each mobile pantry will make three trips a week and 
distribute 1.1 million meals annually to Americans who might otherwise 
go hungry. Collectively, the Kraft Mobile Pantries will provide nearly 
55 million meals to those in need.
    I am pleased to share that by June of this year, mobile pantries 
will be donated to Feeding America food banks in New York; Chicago; San 
Antonio; Madison, Wisconsin; Central Valley (Fresno area), California; 
Cincinnati, Ohio; and Newberry, South Carolina. In 2010-2011, we will 
expand to additional markets across the United States.
            collaboration--kraft foods and save the children
    Kraft Foods is also acutely aware that malnutrition threatens the 
health and well-being of children in other countries. In the 
Philippines, for example, 2.9 million families struggle with hunger. 
Indonesia faces a similar challenge with 13 million undernourished 
families. Earlier this year, Kraft Foods awarded Save the Children a $3 
million dollar grant over the next three years to help improve the 
nutritional well-being of impoverished children in the Philippines and 
Indonesia.
                         employee volunteerism
    Fighting hunger is more than just a corporate concern at Kraft 
Foods. Our employees are just as committed--and that is why we provide 
opportunities for them to give back to their communities. This spirit 
of volunteerism reaches across every level of the organization. For 
example, a senior Kraft Foods executive currently serves as Feeding 
America's board chair. Another Kraft Foods executive serves on the 
Board of the Congressional Hunger Center. Other Kraft Foods employees 
volunteer at food banks and pantries across this country, packing food 
and distributing meals. Still others serve on local food bank boards.
    Employees also share their expertise through a United Nations 
Private Sector Program. Since 2001, Kraft Foods has sent over 100 
employees to 29 countries to assist local agencies, farmers, and 
manufacturers produce foods in-country. Our volunteers have helped 
Albanian coffee producers to create the formula to produce a 
consistently perfect bean and taught temperature control to meat 
processors in West Africa. Our employees have also assisted with 
projects in Ecuador, Fiji, Grenada and Nicaragua, among others.
                               conclusion
    In closing, Kraft Foods has a strong appreciation for the role 
private industry can play in helping to address social issues. The 
partnership between Kraft Foods and hunger-relief experts across the 
globe has helped more people in more communities have better access to 
balanced nutrition. And we are honored to partner with you in this 
effort as well. Again, many thanks for this opportunity and I look 
forward to answering your questions.

    Mr. McGovern. Thank you, all three of you, for your 
testimony. I appreciate it very much.
    Rev. Beckmann, I will be the first to admit that government 
can't solve this problem all on its own. But I want to hear 
from you whether or not the faith-based community can solve 
this problem all on its own.
    Reverend Beckmann. No, no way. Churches and charities can't 
do it all. That is clear to anybody who is involved in church 
and charitable effort to help hungry people. Those people who 
are really involved in it know that they are overwhelmed, that 
people are lining up before and after the churches and 
charities are done.
    It would be great if churches had the resources to be doing 
more than they are doing, but they are doing an awful lot, and 
their charitable efforts are in some cases extraordinary. But 
government has substantially more resources than the other 
actors. There are also policy questions, questions about how 
you make a society in which people have an incentive to work 
and work pays and there are jobs. So there are lots of things 
that government needs to do to be doing its part to overcome 
hunger.
    Mr. McGovern. Mr. Egger, I have visited DC Central Kitchen. 
I appreciate the fact that it is not only about food but about 
nutritious food. I actually cut up cucumbers and carrots, but I 
was told by the person who worked there that I was doing it 
poorly. But I saw of a lot of fresh vegetables going into the 
ingredients. So if you could comment about the importance of 
nutrition as part of our challenge here.
    But the other thing, too, is the types of people that you 
help. Some people are people that can be trained and go back 
into the workforce, but there is a big population out there 
that if it weren't for the fact that you could bring them a 
meal, they would be basically helpless--people that are 
homebound, people that have physical challenges that don't 
enable them to kind of, if I gave them a dollar, to be able to 
kind of stretch it and make it all work.
    If you could comment on the types----
    Mr. Egger. Yes. What has really been exciting over the past 
few years is how many organizations have really focused on 
nutritional content, recognizing, in effect, that it does no 
good to feed somebody unless you are going to feed them 
something that is going to be make them healthy versus 
unhealthy.
    So many of us have really focused--in fact, I think in Mr. 
Arcuri's district, the food bank in central New York was one of 
the very first to draw a line, saying, in fact, we are not 
going to serve anything that does not meet this nutritional 
content.
    We are very deliberate about where we distribute the meals 
we produce, and we are looking to create almost a ladder. So, 
in effect, we are trying to partner with agencies, for example, 
it might be a drug treatment program in which we are helping 
heal physically by giving them good food, so that they 
ultimately become productive citizens; but at the same time the 
meals we serve save that agency millions of dollars a year, 
which means they can produce more men and women who are not 
going to be using drugs anymore.
    If done correctly--and I think this is to your point in 
this conference--done correctly, it is more than just you are 
hungry, here is a meal. It is part of a broader system, whether 
it is educating children that become--I really want to frame 
this away from the right/wrong, good/bad rhetoric into the 
smart/dumb concept.
    And so this whole thing, by making sure kids are fed, they 
are just going to be productive, healthy, taxpaying citizens in 
our future versus young men and women who will be a drain on 
our economy at the very time, with 80 million people getting 
older, we will need them to be productive taxpayers.
    So the nutritional impact side is huge, and this is what I 
think many of us are now looking at. The traditional approach 
of saying, would you please give us, restaurants, hotels, 
farmers, give us what you have, versus a new approach where we 
start to actually purchase, subsidize local farmers, taking the 
food that they normally couldn't sell in a retail outlet, but 
that they--it is still good food. If we could start to purchase 
that, use leveraged Federal dollars again, not only are we 
going to get better food, but we are going to be stimulating 
the economy at the same time.
    Mr. McGovern. Ms. Robinson, first let me thank you for 
being here and let me thank Kraft for their generosity. Food 
banks and food pantries in Massachusetts have benefited from 
your generosity. And, again, not just the food and not just the 
money, but the help and support of your employees who have been 
willing to go out and volunteer and to help make our 
communities better.
    I appreciate the fact that you are even being more generous 
in the upcoming year. But the sad reality is that in America 
hunger is getting worse and the cost of food is more expensive 
than it was.
    So--if I gave you a $100 donation 2 years ago, it doesn't 
buy the same today as it did 2 years ago, so I may think I am 
being just as generous, but people get less food with it. And I 
am wondering whether--you sell food products. I mean, have you 
been able to control your prices or has the cost of fuel and 
everything else resulted in some spikes in your products as 
well?
    Ms. Robinson. Kraft, too, has been impacted in that way. 
But what we have tried to do is help our consumers, which are 
also food bank clients, because they are the working poor, 
understand better how they can budget their meals. How do you 
create dinners off of $10? How do you generate that shopping 
list, which may or may not include Kraft products? And how do 
you learn how to cook nutritious meals and create those dinners 
on a lower budget? So we are doing things like that.
    And healthy lifestyles, I know there has been a lot of talk 
about nutrition. To us, obesity--malnutrition is sort of the 
intersection between hunger and obesity. You can not have 
enough to eat and be malnourished, and still be malnourished at 
the end of the day. So to complement our hunger programs, we 
also deliver healthy lifestyle programs that include nutrition 
education and physical activity.
    And as a part of these programs, there is this huge 
component about shopping. When you go to a grocery store, how 
do you sort of navigate the store and select the right items 
and sort of build your shopping basket, which is a skill that, 
quite frankly, a lot of consumers don't have today.
    Mr. McGovern. I wish all grocery stores would have 
nutritionists come in once a week or that there was more truth 
in advertising. I mean, even those of us who consider ourselves 
educated shoppers, if you go to the supermarket and you see 50 
percent less sodium, than what? The Dead Sea? I mean, you may 
think you are making the right choices, and you shouldn't have 
to be a chemist to figure out a good diet.
    But also, too--and I learned this when I was on the Food 
Stamp Budget--it is tough to be poor. It takes a lot of time to 
shop when you are poor because, for me, if I run out of 
groceries on a Thursday and I go shopping on a Saturday, I 
mean, I will just go back and get more. But for a lot of 
people, that is it. And it takes a lot of time, and it is very, 
very difficult. And again, too often, people aren't given an 
option for a healthy choice. So I appreciate, in particular, 
what Kraft is doing in terms of kind of educating people and 
helping provide people the kind of guidance on how you can do 
it for less. But I think just listening to the panelists here 
today--Democrat, Republican, I mean all of you and what you 
represent--getting everybody in a room together and figuring 
this out so that we could actually stand up and say, here is 
our plan, here is what the faith-based community is going to 
do, here is what the corporate community is going to do, here 
is what the nonprofit community is going to do, here is what 
the Federal Government is going to do, on the Federal, State, 
or local level; and just tie it all together and let us see who 
keeps their assignment. And whoever doesn't do their 
assignment, we will yell at them and make them feel bad.
    But I appreciate that.
    Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman.
    Let me thank each of you. I think each of you recognizes 
that there is not one way to solve this problem. I would, 
however, like to thank each of you because none of you work for 
the government the way I understand it. You are out in the free 
enterprise system, the marketplace, trying to do things because 
you see need.
    Robert, I hear you talk very plainly about children and 
elderly people, or at least the future. The numbers are 
staggering. To Members of Congress, they are staggering. We 
have heard these figures before. We recognize we need to 
prepare people for what is ahead.
    I would say that I think each of you needs to be a part of 
this White House conference when it does take place. I am very 
much in favor of people who can thoughtfully articulate what we 
ought to have, rather than demonstrating or breaking down 
barriers, but rather coming and saying, here are the cold hard 
facts of the case, here is a strategic and a tactful way to get 
to where we want to go.
    And the fact of the matter is that we are starting with--I 
am not trying to start an argument. We are starting with a 
really good story about what exists out there, and we need 
somebody to complete it. We need to work better together. I am 
not going to say we are happy, we are satisfied; you didn't say 
that. But I think that we should start with what we have and 
make it better and then go and find where the holes are.
    Nicole, thank you for taking time to do this. I probably 
put you up to this, and for that I apologize. But I think the 
story that you told was very compelling, and it is a commitment 
that you make, all three of you make. You know what the issue 
is, you see where the holes are, you see where we need to go. 
And like anything else, I think if you coach a lot of us, we 
can get there.
    Thanks to each of you. Thank you.
    Mr. McGovern. I want to thank my colleague, Mr. Sessions, 
for his very thoughtful remarks. I appreciate very much your 
being a part of this hearing.
    Thank you for putting Nicole up to this. I appreciate that 
too.
    Mr. Sessions. It is my fault. She did great too.
    Mr. McGovern. She was wonderful. And I think Robert and 
David are great friends of advocates. Thank you very much. I 
think we are on our way.
    Before we close this hearing, I want to ask unanimous 
consent to insert into the record 30 different letters of 
endorsement for this bill, and an op-ed by former Senator Bob 
Dole and George McGovern in support of a similar conference.
    So thank you for being here.
    The hearing is adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD


Curriculum Vitae and Truth in Testimony Forms for Witnesses Testifying 
                Before the Committee (Where Applicable)
[GRAPHIC] [TIFF OMITTED] 56021A.006

[GRAPHIC] [TIFF OMITTED] 56021A.007

[GRAPHIC] [TIFF OMITTED] 56021A.008

[GRAPHIC] [TIFF OMITTED] 56021A.009

[GRAPHIC] [TIFF OMITTED] 56021A.010

[GRAPHIC] [TIFF OMITTED] 56021A.011

Letter From Ms. Vicki Escarra, President and CEO of Feeding America, to 
 Representatives James McGovern and Jo Ann Emerson, Dated May 9, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.012

[GRAPHIC] [TIFF OMITTED] 56021A.013

    Letter From Ms. Christine A. Poward, Executive Director of the 
  Association of Nutrition Services Agencies, to Representative James 
                     McGovern, Dated May 12, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.014

   Letter From the Reverend Larry Snyder, President of the Catholic 
  Charities USA, to Representative James McGovern, Dated May 12, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.015

Letter From Ms. Margaret Saunders, President, and the Reverend Douglas 
 A. Greenaway, Executive Director of the National WIC Association, to 
           Representative James McGovern, Dated May 12, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.016

Letter From Mr. Max Finberg, Director of the Alliance to End Hunger, to 
           Representative James McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.017

[GRAPHIC] [TIFF OMITTED] 56021A.018

      Letter From Mr. Gary A. Davis, CEO of East Side Entrees, to 
           Representative James McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.019

    Letter From Ms. Karen Pearl, President and CEO of God's Love We 
     Deliver, to Representative James McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.020

Letter From Mr. Hadar Susskind, Vice President and Washington Director 
  for the Jewish Council for Public Affairs, to Representative James 
                     McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.021

[GRAPHIC] [TIFF OMITTED] 56021A.022

  Letter From Mr. David Richart, Executive Director of Lifelong AIDS 
    Alliance, to Representative James McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.023

  Letter From Mr. Joel Berg, Executive Director of the New York City 
 Coalition Against Hunger, to Representative James McGovern, Dated May 
                               13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.024

   Letter From Mr. Kevin Winge, Executive Director for Open Arms of 
    Minnesota, to Representative James McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.025

 Letter From Ms. Deborah R. Hinde, President and CEO to Vital Bridges, 
         to Representative James McGovern, Dated May 13, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.026

  Letter From Mr. Greg Lukeman, Executive Director of Food Outreach, 
      Inc., to Representative James McGovern, Dated May 14, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.027

 Letter From Mr. James D. Weill, President of Food Research and Action 
     Center, to Representative James McGovern, Dated May 14, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.028

   Letter From Ms. Erin Pulling, Executive Director of Project Angel 
      Heart, to Representative James McGovern, Dated May 14, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.029

Letter From Ms. Ellen Parker, Executive Director of Project Bread--The 
 Walk for Hunger, to Representative James McGovern, Dated May 14, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.030

 Letter From Ms. Pat Nicklin, Managing Director of Share Our Strength, 
         to Representative James McGovern, Dated May 14, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.031

Letter From Mr. Robert Greenstein, Executive Director of the Center on 
 Budget and Policy Priorities, to Representative James McGovern, Dated 
                             May 15, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.032

  Letter From Mr. John T. Evers, Executive Director of the Food Bank 
Association of New York State, to Representative James McGovern, Dated 
                             May 15, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.033

Letter From Mr. Clyde W. Fitzgerald, Jr., Executive Director of Second 
Harvest Food Bank of Northwest North Carolina, to Representative James 
                     McGovern, Dated May 15, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.034

    Letter From Dr. Keith Schildt, President, and Mr. Bob Blancato, 
Executive Director, of the National Association of Nutrition and Aging 
     Services Programs (NANASP) to the Chairman and Members of the 
  Subcommittee on Rules and Organization of the House, Dated May 15, 
                                 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.035

[GRAPHIC] [TIFF OMITTED] 56021A.036

Letter From Mr. Bill Ayres, Co-Founder and Executive Director of World 
 Hunger Year, Inc. to Mr. Keith L. Stern, Subcommittee Staff Director, 
                          Dated May 15, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.037

Letter From Ms. Deborah Weinstein, Executive Director of the Coalition 
 on Human Needs, to Representative James McGovern, Dated May 18, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.038

      Letter From Ms. Pamela Baily, President and CEO of Grocery 
Manufacturers Association, to Representative James McGovern, Dated May 
                               18, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.039

    Letter From Dr. H. Eric Schockman, President of Mazon: A Jewish 
                Response to Hunger, Dated May 18, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.040

Letter From Mr. Roger Johnson, President of the National Farmers Union, 
  to Representative James McGovern and Jo Ann Emerson, Dated May 18, 
                                 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.041

Letter From Ms. Kelly D. Johnston, Vice President Government Affairs of 
Campbell Soup Company, to Representative James McGovern, Dated May 21, 
                                 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.042

[GRAPHIC] [TIFF OMITTED] 56021A.043

  Letter From Mr. Paul Downey, President of the California Nutrition 
Coalition, to the Chairman and Members of the Subcommittee on Rules and 
                       Organization of the House.
[GRAPHIC] [TIFF OMITTED] 56021A.044

[GRAPHIC] [TIFF OMITTED] 56021A.045

      Letter From Mr. Edward M. Cooney, Executive Director of the 
                      Congressional Hunger Center.
[GRAPHIC] [TIFF OMITTED] 56021A.046

Letter From the Honorable Dan Glickman, Former Secretary of Agriculture 
  and Former Member of Congress from Kansas, to Representative James 
                               McGovern.
[GRAPHIC] [TIFF OMITTED] 56021A.047

 The Washington Times, Op-Ed by George McGovern and Bob Dole, Entitled 
              ``Obesity Conference Call,'' March 27, 2009.
[GRAPHIC] [TIFF OMITTED] 56021A.048

[GRAPHIC] [TIFF OMITTED] 56021A.049

[GRAPHIC] [TIFF OMITTED] 56021A.050


</pre></body></html>
